TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Accounting for the Austin Incident



                                           July 10, 2012

                              Reference Number: 2012-10-074




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


ACCOUNTING FOR THE AUSTIN                             funding came from the IRS’s Operations Support
INCIDENT                                              appropriation. The Operations Support account
                                                      provides funding for functions such as
                                                      infrastructure and information services.
Highlights                                            The IRS advised us that the costs incurred as a
                                                      result of the Austin incident caused no direct
Final Report issued on July 10, 2012                  budgetary impact on the IRS’s ability to provide
                                                      taxpayer services or enforce tax laws. However,
Highlights of Reference Number: 2012-10-074           the loss of an IRS employee and the injuries
to the Internal Revenue Service Deputy                sustained by 13 others is immeasurable.
Commissioner for Operations Support.
                                                      While the IRS timely issued a special accounting
IMPACT ON TAXPAYERS                                   code to track the Austin incident expenditures,
                                                      not all costs resulting from the incident were
On February 18, 2010, a single-engine airplane
                                                      captured under this code. The miscoding of
was intentionally flown into an IRS building in
                                                      some costs resulted from the IRS omitting a key
Austin, Texas (hereafter referred to as the
                                                      individual responsible for coding these costs
Austin incident). The IRS responded by
                                                      from the information distribution list.
implementing business resumption plans that
contain specific procedures for managing such         WHAT TIGTA RECOMMENDED
events. While the Austin incident displaced
approximately 200 IRS personnel who worked in         TIGTA recommended that the Deputy
the building, the costs incurred as a result of the   Commissioner for Operations Support ensure
Austin incident caused no adverse budgetary           that communications relating to the use of
impact on the IRS’s ability to provide taxpayer       special accounting codes to track costs
services or enforce tax laws.                         associated with unforeseen events are
                                                      distributed to all IRS personnel involved in
WHY TIGTA DID THE AUDIT                               coding incident-related expenses.
The overall objective of this review was to           In their response, IRS management agreed with
determine the costs to the IRS resulting from the     our recommendation and plans to create a form
Austin incident from the date of the incident         letter to be kept in the Incident Management
through September 30, 2011.                           Planning Toolkit and distributed at the time of an
                                                      emergency event that gives instructions for use
WHAT TIGTA FOUND                                      of the internal code. A designated space will be
The IRS spent more than $38.6 million from            available where the code can be displayed.
February 18, 2010, through September 30,
2011, as a result of the Austin incident. The
costs the IRS incurred included approximately
$6.4 million for immediate local incident
response and business resumption activities and
approximately $32.2 million to evaluate and
enhance employee safety and physical security
at IRS facilities nationwide. The IRS used
$31.7 million in a combination of user fees (fees
collected by the IRS to help offset the costs of
providing services to specific taxpayers) and
carryover funds (appropriation funds not yet
obligated for an authorized purpose to pay for
unplanned expenses), and $6.9 million in Fiscal
Years 2010 and 2011 appropriated funding to
pay for costs related to the Austin incident. The
majority of the $6.9 million in appropriated
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 10, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting, Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Accounting for the Austin Incident
                             (Audit # 201110022)

 This report presents the results of our review of accounting for the Austin incident. The overall
 objective of this review was to identify all expenses incurred by the Internal Revenue Service as
 a result of the February 18, 2010, airplane crash into the Austin, Texas, Echelon I building. This
 review is included in our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have any questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                               Accounting for the Austin Incident




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Austin Incident and the Subsequent Enhancement
          of Internal Revenue Service Security Nationwide Cost
          More Than $38 Million ................................................................................. Page 3
                    Recommendation 1:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measure ................................................................ Page 12
          Appendix V – Management’s Response to the Draft Report ....................... Page 13
            Accounting for the Austin Incident




              Abbreviations

IRS     Internal Revenue Service
TIGTA   Treasury Inspector General for Tax Administration
                                         Accounting for the Austin Incident




                                             Background
On February 18, 2010, a single-engine airplane was intentionally flown into an Internal Revenue
Service (IRS) building in Austin, Texas, killing the pilot and an IRS employee and injuring
13 others (hereafter referred to as the Austin incident or incident). The resulting fire severely
damaged the structure of the building and the contents were almost a total loss. In a
September 2011 Treasury Inspector General for Tax Administration (TIGTA) report,1 we
reported that the IRS adequately prepared for and took the necessary actions to evacuate and
protect approximately 200 IRS employees working in the building, secure taxpayer data and
Federal Government property, and timely resume business operations following the incident. In
addition, the IRS also provided extensive personnel services to support employee needs,
identified temporary office space for the affected employees, awarded several procurements to
support the recovery effort in an expedited time period, and provided the furnishings and
equipment that facilitated the resumption of work.
The IRS’s accounting system2 has the capability to establish unique tracking codes3 to capture
expenses associated with an unforeseen event. In response to the Austin incident, the IRS
established a tracking code to account for the related expenditures. The tracking code for the
Austin incident was to include all expenditures that required the IRS to expend funds relating to
the incident. Costs did not include the following expenditures:
       $144,000 in workers’ compensation claims paid to IRS employees affected by the Austin
        incident as of September 30, 2011. These claims were paid out of the Employees’
        Compensation Fund that is administered by the United States Department of Labor.
       $473,000 in salary expenses associated with 172 IRS employees placed on administrative
        leave for almost two weeks following the Austin incident.4 The administrative leave
        costs do not represent any additional outlay of funds but represent a productivity cost, as
        these individuals were unable to perform their duties.


1
  TIGTA, Ref. No. 2011-10-098, The Internal Revenue Service Adequately Prepared for and Responded to the
Austin Incident, p. 1 (Sept. 2011).
2
  The Integrated Financial System contains the IRS’s core financial systems, including expenditure controls,
accounts payable, accounts receivable, general ledger, and budget formulation.
3
  Internal Order codes are a project tracking subsystem within the IRS Integrated Financial System that collects
expenditure data.
4
  Certain authorized IRS officials may dismiss or excuse the absence of employees without loss of pay (commonly
referred to as administrative leave) in limited situations, such as when normal operations are interrupted by events
beyond the control of management or employees. This cost figure represents 13,545 hours of administrative leave.
Not all employees were placed on administrative leave in the weeks following the incident because some employees
worked on response and recovery efforts.
                                                                                                            Page 1
                                 Accounting for the Austin Incident




This review was performed at the IRS National Headquarters in Washington, D.C., in the offices
of Agency-Wide Shared Services and the Chief Financial Officer and in the Real Estate and
Facilities Management offices in Austin, Texas, during the period September 2011 through
January 2012. This review examined only the IRS costs resulting from the Austin incident from
the date of the incident through September 30, 2011. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                                       Accounting for the Austin Incident




                                     Results of Review

The Austin Incident and the Subsequent Enhancement of Internal
Revenue Service Security Nationwide Cost More Than $38 Million
The IRS spent more than $38.6 million from February 18, 2010 (date of the incident) through
September 30, 2011, as a result of the Austin incident. The costs associated with the Austin
incident were funded through a combination of:
       $31.7 million in user fees and carryover funds not yet obligated. User fees are collected
        by the IRS to help offset the costs of providing services to specific taxpayers and are
        charged when special benefits are provided to taxpayers beyond those that the general
        public receives; e.g., establishing an installment agreement. Carryover funds are
        appropriation funds not yet obligated for an authorized purpose. Due to the urgency of
        the circumstances, the IRS initially paid for all expenses associated with the Austin
        incident with appropriated funds while requesting permission from the Senate
        Appropriations Committee and the Office of Management and Budget to spend carryover
        funds and user fees to cover the unforeseen costs. Subsequently, the IRS received
        permission to use the user fees and carryover funds.
       $6.9 million in Fiscal Years 2010 and 2011 appropriated funding. Appropriated funding
        are those funds that allow the IRS to incur obligations and make payments out of the
        Department of the Treasury for specified purposes.5 The majority of the $6.9 million in
        appropriated funding came from the IRS’s Operations Support appropriation account and
        represented less than 0.06 percent of the IRS’s $12.5 billion budget.6 The Operations
        Support account provides funding for functions such as infrastructure and information
        services.
The costs the IRS incurred included $6.4 million resulting from the immediate local response to
the Austin incident and resumption of business activities and $32.2 million to evaluate and
enhance IRS employee safety and physical security at IRS facilities nationwide. The IRS
advised us that the costs incurred as a result of the Austin incident caused no adverse budgetary
impact on the IRS’s ability to provide taxpayer services or enforce the tax laws. However, the
loss of an IRS employee and the injuries sustained by 13 others is immeasurable. While the IRS


5
  Congress annually considers appropriation measures, which provide funding for general Government operations.
Under 31 U.S.C. § 1301(a), public funds may only be used for purposes for which Congress appropriated the funds.
6
  The Taxpayer Services and Enforcement budget appropriation funded approximately $200,000 of the immediate
local response and recovery expenses.
                                                                                                         Page 3
                                        Accounting for the Austin Incident




timely issued a special accounting code to track the Austin incident expenditures, not all costs
resulting from the incident were captured.

Response and business resumption costs
The fire resulting from the Austin incident rendered the building unfit for occupancy and
destroyed most of the contents. Approximately 200 IRS personnel who worked in the building
had to be relocated to temporary office space. The IRS spent over $6.4 million on costs
associated with the immediate local response to the Austin incident and business resumption
activities. These costs included moving IRS personnel to and from temporary workspace, rent
expenses associated with leasing a new office building, replacement of damaged furniture, and
other expenses such as overtime pay and travel. The largest expense, totaling approximately
$3.3 million, was for contractor services to retrieve and restore documents and other sensitive
materials; e.g., tax returns that were damaged during the incident. Figure 1 provides a
breakdown of the costs associated with the immediate response and business resumption.
                    Figure 1: Costs Related to Immediate Response and
                      Business Resumption (as of September 30, 2011)

                               Description of Costs                              Amount
                Document Recovery                                               $3,258,213
                Additional New Building Rent7                                   $1,039,244
                Build-Out Preparation Costs for New Building                      $841,425
                Furniture Rental at New Building                                  $366,032
                Employee Travel Expenses                                          $271,191
                Overtime Paid to Employees                                        $223,876
                Contract Labor During the Incident Response                       $145,145
                Office Supplies                                                    $87,535
                Miscellaneous Expenses                                             $87,140
                Old Building Rent During Salvage Operations                        $61,690
                Alterations to New Building Prior to Move                          $40,451
                Total                                                           $6,421,942
              Source: TIGTA analysis of IRS real estate and financial management records.


7
 The additional rent paid by the IRS was calculated by subtracting the old monthly rent ($90,979) from the new
building’s monthly rent ($160,262). As a result of the Austin incident, we determined that the IRS paid an
additional $69,283 per month from the time the IRS occupied the new building in July 2010 through the end of our
audit period, September 30, 2011.
                                                                                                         Page 4
                                    Accounting for the Austin Incident




Nationwide evaluation and enhancement of physical security costs
Immediately following the Austin incident, the IRS obtained the services of an outside consultant
to provide an independent review of the IRS’s physical security and emergency preparedness
operations and policies. The consultant was also to aid in identifying potential vulnerabilities
and/or safety deficiencies and to provide an evaluation of overall IRS security. The costs
associated with the evaluation and enhancement of IRS security nationwide totaled
approximately $32.2 million. The largest expenditure included in this total was more than
$30.4 million related to the acquisition of new or additional contract guard services at IRS
facilities. Figure 2 provides details on the costs associated with the security initiatives
undertaken subsequent to the Austin incident.
                       Figure 2: Cost of Security-Related Expenses
                                (as of September 30, 2011)

                                Description of Cost                          Amount
        Additional Guard Services at IRS Facilities Nationwide             $30,496,367
        Security Evaluation and Risk Assessment Contract                    $1,236,634
        Security Consultant                                                   $445,501
        Total                                                              $32,178,502
       Source: TIGTA analysis of IRS financial management records.

The TIGTA has an audit currently underway to determine whether the IRS administered the
$1.2 million Physical Security Risk Assessment contract in compliance with applicable
acquisition regulations and guidance and whether the IRS received the contract deliverables in
accordance with the terms and conditions of the contract.

Not all related costs were coded as an Austin incident cost
The IRS recognized the importance of timely identifying expenses incurred as a result of the
Austin incident. As such, the IRS established a special tracking code within its accounting
system the same day the incident occurred (February 18, 2010). The Chief, Budget Execution
Operations, distributed the assigned Austin incident code to its Chief Financial Officer Division
finance officers on the following day, along with a request that they pass this information on to
their staff and program offices. The requirement to use the code for expenditures relating to the
Austin incident was also distributed to IRS employees informally through e-mails. However, our
review identified approximately $3.6 million (9.3 percent) of the $38.6 million in costs
associated with the Austin incident that were not properly coded in the IRS’s accounting system.
Figure 3 provides details of the expenses that were not properly coded.



                                                                                          Page 5
                                         Accounting for the Austin Incident




                       Figure 3: Costs Not Coded to the Austin Incident

                                  Description of Costs                                 Amount
                                        8
              Real Estate Expenses                                                   $2,348,842
              Security Evaluation and Risk Assessment Contract                       $1,236,634
              Employee Reimbursement for Loss of Personal Items                          $13,493
              Total                                                                  $3,598,969
           Source: Analysis of IRS financial management records.

Although we identified improperly coded costs, the IRS provided a reasonable business case
explanation for not coding the security evaluation and risk assessment contract to the Austin
incident. In addition, IRS management explained that the miscoding of the real estate expenses
was the result of an accounting system limitation. For example:
       Security Evaluation and Risk Assessment Contract – More than $1.2 million in costs
        associated with obtaining a contractor to perform risk assessments at IRS facilities
        nationwide were coded to the IRS Commissioner’s Security Readiness Project initiative.
        A Safety and Security update from the IRS Commissioner, released in May 2011, noted
        that the first step taken by the IRS to ensure the safety and security of IRS employees
        after the Austin incident was to perform a comprehensive review of IRS facilities across
        the country to determine how the IRS might improve its security posture. The IRS
        advised us that subsequent to the establishment of the Austin incident code, another code
        was established to document the expenses related to the IRS Commissioner’s Security
        Readiness Project initiative. This was the code that the risk assessment contract expenses
        were tracked under.
       Additional Real Estate Costs – More than $2.3 million in real estate costs could not be
        coded to the Austin incident, including rental expenses at the old office building while
        salvage operations were underway, additional lease costs for the new office space,
        alterations to the new office space, and new office furnishings. The additional rent paid
        by the IRS was calculated by subtracting the old monthly rent from the new building’s
        monthly rent from the time the IRS occupied the new building in July 2010 through the
        end of our audit period, September 30, 2011. According to the IRS, the monthly rent bill
        for all IRS leased space is paid through one lump-sum payment to the General Services
        Administration. Because of the method in which the rental payments are made and how
        the other real estate costs are tracked, it was not possible to separately code the increase
        in rent costs to the Austin incident due to an accounting system limitation.


8
  These costs included rental expenses at the old office building while salvage operations were underway, additional
lease costs for the new office space in Austin, alterations to the new office space, and new office furnishings.
                                                                                                            Page 6
                                     Accounting for the Austin Incident




However, the remaining miscoded expense of $13,493 in employee claims for personal property
losses were processed and paid under the Military Personnel and Civilian Employees’ Claims
Act9 and the Department of the Treasury’s implementing guidelines for that statute. Although
properly processed and paid, the costs were not coded under the Austin incident tracking code.
The IRS originally stated that a lack of clarity in the information distributed to IRS employees as
to the type of expenses that should be recorded under this code resulted in the miscoding.
However, subsequent to being provided a draft of this report, the IRS determined that the
miscoding resulted from the omission of a key IRS individual responsible for approving these
claims from the original special accounting code distribution list. As a result, this individual was
not aware that a specific accounting code was established to track Austin incident costs.
The validity and accuracy of IRS financial reports depends on the correct use of financial
accounting codes. The Government Accountability Office Standards for Internal Control in the
Federal Government requires accurate and timely recording of transactions and events.10
Transactions should be promptly recorded to maintain their relevance and value to management
in controlling operations and making decisions. This applies to the entire process or life cycle of
a transaction or event from the initiation and authorization through its final classification in
summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should ensure that
communications relating to the use of special accounting codes to track costs associated with
unforeseen events are distributed to all IRS personnel involved in coding incident-related
expenses.
        Management’s Response: IRS management agreed with our recommendation. A
        form letter will be created to be kept in the Incident Management Planning Toolkit and
        distributed at the time of an emergency event that gives instructions for use of the internal
        code. A designated space will be available where the code can be displayed.




9
  31 U.S.C. § 3721.
10
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                    Page 7
                                         Accounting for the Austin Incident




                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to identify all expenses incurred by the IRS as a result of
the February 18, 2010, airplane crash into the Austin, Texas, Echelon I building.1 To accomplish
this objective, we:
I.       Determined the total expenses incurred by the IRS as of September 30, 2011, as a result
         of the Austin incident.
         A. Obtained IRS Integrated Financial System extracts and interviewed managers in the
            IRS business units located in the Echelon I building, the Office of Procurement, and
            the Chief Counsel Office to identify expenses related to the Austin incident.
         B. Analyzed and grouped all Austin incident expenses by the nature and type of
            expenditure.
         C. Evaluated Austin incident expenses to determine whether the Internal Order
            accounting code “IRREG” was properly used to code expenditures in the IRS
            accounting system.
         D. Determined the IRS policy for reimbursing employees for personal items destroyed
            during the Austin incident.
         E. Assessed the reliability of the Integrated Financial System computer processed data
            and determined that the data are sufficiently reliable to use for our audit tests. The
            IRS Integrated Financial System is an established financial system used by the IRS to
            account for expenditures. We determined that all transactions in the data extracted
            were within our audit period. We identified the transactions within the data extract
            related to the Austin incident and identified the transactions that were coded with the
            IRREG Internal Order code.
II.      Determined which budget appropriations were used to pay for expenses related to the
         Austin incident.
         A. Determined the amount of each budget appropriation used to pay for expenses.
         B. Determined whether the IRS requested or received any additional funding from
            Congress to pay for expenses related to the Austin incident.


1
 The costs included both the local response and business resumption activities in Austin, Texas, and the additional
costs for broader security initiatives undertaken nationwide.
                                                                                                            Page 8
                                   Accounting for the Austin Incident




Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures relating to the
Austin incident for the accounting and classification of expenditures. We evaluated these
controls by: 1) interviewing management and other employees involved in the immediate
response and recovery from the Austin incident and the employees involved in the broader
security initiatives implemented by the IRS throughout the country, 2) interviewing financial
management employees involved in the funding process for Austin incident transactions, and
3) reviewing accounting records and documentation maintained by the IRS.




                                                                                            Page 9
                               Accounting for the Austin Incident




                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Alicia P. Mrozowski, Director
John L. Ledford, Audit Manager
Jonathan T. Meyer, Audit Manager
Heather M. Hill, Acting Audit Manager
Tom J. Cypert, Lead Auditor
Jennifer Clewis, Auditor
Melvin Lindsey, Auditor
Don Martineau, Auditor




                                                                                  Page 10
                               Accounting for the Austin Incident




                                                                    Appendix III

                        Report Distribution List

Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
IRS Human Capital Officer OS:HC
Director, Employee Support Services OS:A:ESS
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Procurement OS:A:P
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO




                                                                          Page 11
                                   Accounting for the Austin Incident




                                                                                  Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; $13,493 in expenditures were not properly coded with
    the special tracking code established by the IRS to classify expenditures related to the Austin
    incident in its accounting records (see page 3).

Methodology Used to Measure the Reported Benefit:
To determine the amount of $13,493 that we consider to be inaccurately recorded in the IRS’s
accounting records, we evaluated all expenditures as a result of the airplane crash into the
Austin, Texas, IRS office building. A total of $38,600,444 was spent by the IRS related to the
Austin incident, and $3,598,969 was not properly coded with the accounting Internal Order code
established by the IRS to classify expenditures related to the incident in its accounting records.
Of this, $2,348,842 in additional real estate expenses were not captured by the code because the
IRS pays its monthly rent bill for IRS-leased space through one lump-sum payment to the
General Services Administration, and because the IRS’s real estate project database determines
the Internal Order codes assigned to projects during the planning phase and cannot be
overridden. As a result, we removed the real estate expenses from our calculation. We also
removed $1,236,634 spent on the security risk assessment from our calculation because the IRS
established another accounting code to classify this expense.




                                                                                           Page 12
             Accounting for the Austin Incident




                                                  Appendix V

Management’s Response to the Draft Report




                                                       Page 13
Accounting for the Austin Incident




                                     Page 14
